                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: A12030014                                                                     Page 1 of 1



                NSF OIG received an allegation that the Subject1 submitted an NSF proposaf containing
         copied text. Our inquiry determined that almost all of one section was copied from an article
         with the verb tense changed from past to present tense. We determined there was sufficient
         evidence to proceed with an investigation.

                 We conducted our own investigation because the institution3 was a small business. We
         concluded, based on a preponderance ofthe evidence, that the Subject knowingly committed
         plagiarism in two NSF proposals, 4 and that the plagiarism constituted a significant departure
         from accepted practices of his professional community. We recommended actions to be taken to
         protect the federal interest. The Senior Advisor to the Director concurred with our
         recommendations.

                This memo, the Report of Investigation, and the letter from the Senior Advisor to the
         Director to the Subject constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
                                     NATIONAL SCIENCE FOUNDATION
                                         4201 WILSON.BOUtEVARD
                                        ARLINGTON, VIRGINIA 22230

     ·~t;hc:;It ,,

    <~~                                                                     JAN 13 2014
    OFFICE OF THE
   DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




        Re:          Notice of Research Misconduct Determination


Dear D r . -



                                                                        As documented in the
attached Investigative Report prepared by NSF's Office of Inspector General ("OIG"), these
proposals contained plagiarized material.        ·

Research Misconduct and Proposed San~tions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.l(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.l(a)(3). A finding of research misconduct
requires that:

        (1) There be a significant departure from accepted practices of the relevant research
            community; and
        (2) The research misconduct be coinrnitted intentionally, or knowingly, or recklessly;
            and·
        (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

        Your proposals contained verbatim and paraphrased text copied from multiple source
documents. By authoring proposals that copied the ideas or words of another without adequate
attribution, as described in the OIG InvestigativeReport, you misrepresented someone else's
work as your own. Your conduct unquestionably constitutes plagiarism. I therefore conclude
                                                                                                Page2
that your actions meet the definition of"research misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance ofthe evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed knowingly and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

         NSF's regulations establish three cat~gories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(l ).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2) .. Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

       In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
knowingly. I have also considered the fact that your misconduct was not part of a pattern of
misconduct, and had no impact on the research record, as well as other relevant circumstances.
45 CFR § 689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

       (1) From the date of this letter through January 1, 2016, you must provide certifications
           to the OIG that any proposal or report you submit to NSF as a PI or co-PI does not
           contain plagiarized, falsified, or fabricated material; and

       (2) By January 1, 2015, you must attend a responsible conduct of research training
           program and provide documentation to the OIG of the program's content. The
           instruction should be in an interactive format (e.g, an instructor-led course) and
           specifically include a discussion on citation practices.

       The certifications and training documentation should be submitted in writing to OIG,
Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia
22230.
                                                                                      -- .1




                                                                                              Page3
Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director ofthe Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become fmaL

       For your information, we are au<L'-'Ulurs                                     Ifyouhave
any questions about the foregoing, please                                              (703) 292-
8060.



                                                     Sincerely,




                                                     Fae Korsmo
                                                     Senior Advisor


Enclosures
- Investigative Report
- 45 C.P.R. Part 689
·-·.-!




         SENSITNE                                                                                              SENSITf'i.IE




                 National Science Foundation
                   Office of Inspector General




                             Report of Investigation
                            Case Number A12030014
                                             July 31, 2013

                                        ·.      ...   :    .    ··:   -    .- ..'. · . . .   ·_.·

                               . • . Th,isReport oflnves1igatiol1. i~ proii.ded 't() you
                                     . . . . . FOR OFFICIAL USE ONLY. '                ...
         .. J:t containspwtected personal information; tb,e un~uthorized di~dosure ofwhich Il1ayrt?sult.in
          ·.• personalcriilliilalliability under tll,e Privacy Act; 5·_ U. ~.C. § .55 2a. This report may be' fu!ther
          . disclosed 'Yitbin NSf only to .il1dividuals> who 1nu~t have knowledge oLits _contents to .
            ·f~cilita.te.NSF's •_ assessment. ··and. resolution .of ,this matter.·. This ·report· may pe. di~Closed·
          . dutside -NSF only under the Freedomofln£ormationand Privacy Acts, 5T]S.C.· §§ 552 & ·
         •. ~52a... Pleas~ ~e appropriate precautiorui han~lirig this report ofinvestigation. · · · · ·. · ·

                                                                                                    NSF OIG Form 22b (1/13)
SENSITIVE                                                                           SENSITIVE


                                     Executive Summary

Allegation:           Plagiarism

OIG Inquiry:          OIG identified three sources from which 46 lines, one figure, and six
                      references were apparently copied into one NSF proposal. The Subject
                      acknowledged the proposal contained inadequately cited text.

OIG
Investigation:        OIG identified another NSF proposal that contained 50 lines, one figure,
                      and three embedded references copied from five sources.

                     ()IG concluded, based orr a preponderance of the evidence, tnax tne
                     Subject knowingly committed plagiarism, and that the plagiarism
                     constituted a significant departure from accepted practices of his
                     professional community.

OIG
Assessment:
                 •     The Act: The Subject plagiarized 96lines, two figures, and nine
                       references from eight sources into two proposals.
                 •     Intent: The Subject acted knowingly.
                 •     Standard of Proof: A preponderance of evidence supports the conclusion
                       that the Subject committed plagiarism.·
                 •     Significant Departure: The Subject's plagiarism represents a significant
                       departure from accepted practices.
                 •     Pattern: Two NSF proposals and three DOD proposals submitted by the
                     . Subject contain plagiarism.

OIG
Recommendations:
              •             Make a finding of research misconduct against the Subject.
              •             Send the Subject a letter of reprimand.
              •             Require certifications from the Subject for a period of2 years.
              •             Require certification of attending a responsible conduct of research
                            training program within 1 year.




                                              1
SENSITIVE                                                                                                SENSITIVE


                                                   OIG's Inquiry

        OIG conducted an inquiry into an allegation that the Subject 1 submitted an NSF proposal
           2
(Proposal 1 ) containing copied text Our initial analysis found 46 lines, one figure, and six
embedded references apparently copied from three sources. 3 We noted that, while most of the
material constituted background information, almost alf of one section was copied from an article
with the verb tense changed from past to present tense. 4

         We contacted the Subject about the allegation. 5 In his response, the Subject said:

         When we prepared the final version of the proposal submitted to NSF, we -
         switched the software to OpenOffice .... For some reason, some reference links
         were broken and some references were messed up and missing.

         Nevertheless, it was my fault and I should have been more carefuL As I conveyed
         my sincere apology to you through the phone, I feel very bad about the
         unintended mistakes and my carelessness. As I told you, this proposal is my
         FIRST one and the ONLY one I have submitted to NSF and I will personally
         assure you that those mistakes will never occur again in future. 6

The Subject's response did not dispel the allegations as he acknowledged Proposal I contained
inadequately cited text. We determined there was sufficient evidence to proceed with an
investigation.

                                                OIG Investigation

        Because the institution is a small business, we conducted our own investigation rather
than refer the matter to the institution.                     ·

       Proposal! 's Current and Pending Support section listed an awarded Department of
Defense (DoD) proposaL 7 We obtained the proposal for the active award and two other DoD
proposals. 8 We identified potential plagiarism inthe three proposals andprovided the
information to DoD for its own review. 9           ·




  Tab 2: Sources A-C.
4
  Tab 1 pg 8-9 and Tab 2 Source B.
5
  Tab 3.                      letter was returned to our office and. resent to the Subject at a different address on




 Materials were provided
appropriate party.


                                                           2
 SENSITIVE                                                                                               SENSITNE


        Most crucially, contrary to the Subject's contention that Proposal! was his first and only
 NSF proposal, he had in fact submitted another NSF proposal (Proposal 2) a year before
 Proposal 1. 10 Proposal2 contains 50 lines, one figure, and three embedded references apparently
 copied from five sources. 11 The chart below illustrates the copied material in Proposals 1 and 2.

                                                     Proposal!               Prol'osal2
                        Source A
                        (book ch:1]21:er)            9 lines
                      . Source B                     28 lines, 1 figure,
                        (article)                    4 embedded references
                        Source C                     9 lines,
                        (article)                    2 embedded references
                        __,
                      ~..,
                                  -
                             ........ w,..o"".a..;



                      (DOD proposal)                                         17lines
                      SourceE                                                121ines,
                      (article)                                              2 embedded references
                      SourceF                                                10 lines, 1 figure,
                      (article)                                              1 embedded reference
                      Source G (article)                                     3 lines
                      Source H (article)                                     8 lines

        We informed the Subject of our investigation and asked him to address his claim that
Proposal 1 was his first and only NSF proposal, the newly identified copied text in Proposal 2,
        - - 1 questiOns.
and a dd1t1ona      -     12
                             ·

        In his response, 13 the Subject explained that when he received our inquiry letter he was
facing litigation with another company 14 and was overwhelmed with anxiety. 15 He said:

           As the results, I reacted based on my memory that we had only submitted one
           proposal to NSF. Since the first proposal we submitted to NSF occurred almost
           one year before and it was turned down without review, I had no memory of it. .. I
           did not intend to lie or make any false statement - all my submitted proposals are
           recorded on the government side and it doesn't make any sense for me to lie. But
           I should have checked our records before I responded to NSF. It was my
           unintended mistake and I feel very sorry about it. 16




   Tab 6.
12
   Tab 7.
13
   Tab 8.
14
   With complaints filed in both state and federal courts in                                 the Subject's former
          is suing him and                    alleging (among other things) that the Subject, while still employed at
               submitted proposals he wrote for                 on behalf of his own newly created company,
                without                  s knowledge. The complaint identifies the DOD proposals but not the NSF
~roposals.
5
     Tab 8, pg 2.
16
     Tab 8, pg 2-3.


                                                                 3
SENSITIVE                                                                                 SENSITIVE


          Regarding the material we identified in Proposal 2, he acknowledged he "copied material
from the documents into my proposal unknowing that I was violating the research ethics. "·17 He
·said· he personally prepared Proposals 1 and 2 without writing or editing assistance. 18

        The Subject explained that, until he received our investigation letter, he had not realized
his "long-held misconception" regarding plagiarism. 19 He said he had "never been instructed
regarding the definition of plagiarism or engaged in self-study on the subject," never. took a grant
writing course, and did not use any particular style manual. 20 He said he learned about
plagiarism through "some casual conversations with peer researchers," during which he "was
told that as long as you don't explicitly state referenced or copied materials as your own work,
you can use the materials :freely." 21     .                                        ·


      However, when he received our investigation letter, he said he "sensed something was . ·
wrong" and "did some preliminary search using Google on the research ethics."22 He explained:

           I was shocked to fmd out that I had held a misconception for so many years ....
           Immediately after I realized my this misconception, I took this issue very
           seriously and suspended all the proposal writing activities. Furthermore, I believe
           there must be more than this misconception about this topic for me to pick up. So
           I decided that before I take systematic training on the topic of research ethics, I
           will not write any more proposals. Please give me a chance to correct this and any
           other misconceptions that I might have .... I believe with the correct concept and
           information, this will not happen any more, because I cherish my research career
           and I don't want it ruined by this misconception and unintentional mistakes. 23

       In his second response the Subject did not contest having plagiarized material ill
Proposals 1 and 2. While his first response attributed the plagiarism to computer software, his
second response attributed it to misunderstanding plagiarism.

        The Subject's current CV24 describes his research, educational, and professional
background. Although the Subject received his Bachelor's degrees outside the U.S} 5 he received
his M.S. and Ph.D. degrees at a preeminent U.S. research university. 26 Additionally, since 2002, all
of the Subject's employment, including a position as a postdoc:toral scholar,27 was in the U.S. The




17
   Tab   8, pg 3.
18
   Tab   8, pg 3.
19
   Tab   8, pg 1.
20
   Tab   8, pg 4.
21
   Tab   8, pg 1.
22
   Tab   8, pg 1.
23
   Tab   8, pg 1-2.
24
   Tab   8, pg 6-7.
25




                                  ••••• He to-as··········in
                                                    re~ed

                                                    4
 SENSITIVE                                                                                                SENSITIVE


 Subject served as primary author on 10 and co-author on 6 publications in English-language
 publications, 28 and is a co-inventor on three U.S. patents.

        To determine the standards ofthe Subject's research community, we first examined the
 standards ofhis previous employers. We noted that none of the websites of the companies at
 which he was employed29 include research misconduct policies.              .

         The university where the Subject carried out his graduate research has an honor code
 which clearly prohibits plagiarism. 30 The university where he worked as a postdoc for two years,
 and where he returned as an employee thereafter, has a Policy on Integrity in Research that
 similarly clearly prohibits plagiarism. 31

        In addition, two of the four professional societies in which the Subject reported
membership in his NSF proposal biographical sketches have established ethical standards. 32 We
found that the website for the society iri whose journals and at whose conferences the Subject
most frequently published or presented includes an author resource center that contains ethical
guidelines discussing such topics as plagiarism. 33 The second society's website contains a whole
section defining plagiarism, which states that "Plagiarism in any form is unacceptable and is
considered a serious breach of professional conduct, with potentially severe ethical and legal
   .           ,34
consequences.

        Given the field in which_the Subject conducts research, his graduate school's and
postdoctoral institution's clear standards, and the standards ofhis professional societies, it is
difficult to credit his clmms to have been unaware that plagiarism is unacceptable.

                                                OIG's Assessment

       A finding of research misconduct by NSF requires that (1) there be a significant departure
from accepted practices of the relevant research community; (2) the research misconduct be
committed intentionally, knowingly, or recklessly; and (3) the allegation be proved by a
                                35           .
preponderance of the evidence.




28
  Because all 16 publications have multiple authors, we did not examine them for plagiarism as any copied text
identified would be inconclusive           its author.
29




                                                                                                          include

                and                                                                     the guidelines post-date the




34·······················
Subject's self-reported involvement with the society, a review of the site as it appeared i n _ (via
http://archive.org/web/web.php) found it contained versions of both documents.
35
     45 C.P.R.§ 689.2(c).


                                                          5
SENSITIVE                                                                                              SENSITNE


                                                      The Acts

        Under NSF's regulation, "Plagiarism means the appropriation of another person's ideas,
processes, results or words without giving appropriate credit." 36 The Subject plagiarized 96lines,
two figures, and nine references from eight sources into two NSF proposals. OIG concludes the
Subject's actions constitute plagiarism, as defined by NSF. In offering material composed by
others as his own, the Subject misrepresented his own efforts and presented reviewers with a
false representation of his knowledge of the research area.

        The quantity of the Subject's plagiarism constitutes a significant departure from accepted
practices of his professional community.

                                                       Intent

        We conclude the Subject acted knowingly in plagiarizing material. Even though the
Subject now operates within a very small business rather than academic context, he spent seven
years in top-tier U.S. research institutions as a graduate student and postdoc, and then seven
years working for U.S. research companies. The Subject's claims that he lacked knowledge
about appropriate citation practices are not phmsible in light ofhis experience. We therefore
conclude the Subject's actions were knowing.

                                                Standard o(Proo(

      OIG concludes that the Subject's actions and intent were proven based on a
preponderance of the evidence.

        OIG concludes that the Subject, by a preponderance of the evidence, knowingly
plagiarized,37 thereby committing an act of research misconduct. 38

                                     OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

         (1) How serious the misconduct was; (2) The degree to which the misconduct was
         knowing, intentional, or reckless; (3) Whether it was an isolated event or part of a
         pattern; (4) Whether it had a significant impact on the research record, research
         subjects, other researchers, institutions or the public welfare; and (5) Other
         relevant circumstances. 39




36
    45 C.F.R. § 689.l(a)(3).
37
    The draft report that we sent to the Subject erroneously here read "knowingly recklessly plagiarized", even though
 the remainder ofthe report correctly stated the intent as knowing. We have corrected this error in this fmal report.
 38
    45 C.F.R. part 689.
 39
· 45 C.F.R. § 689.3(b).




                                                          6
     SENSITIVE                                                                             SENSITIVE


                                                      Seriousness

         The' Subject's actions are a violation of the standards of scholarship and the tenets of
 general research ethics. Copied text serves to misrepresent one's body ofknowledge, presenting
 reviewers with an inaccurate representation of a proposal's merit. However, the amount of
 plagiarism is comparatively modest.

                                                        Pattern

         The plagiarism contained in the NSF proposals display a pattern of plagiarism. In
 addition, the review of three DoD proposals identified additional plagiarism. Specifically, the
 first DoD proposal contains roughly 48 copied lines and 2 embedded references; the second DoD
 proposal contains roughly 70 copied lines and 3 embedded references; and the third DoD
 Proposal3 contains roughly 44 copied lines. ·

                                                 Recommendation

 Based on the evidence, OIG recommends that NSF:

          •   Send the Subject a letter of reprimand notifying him that NSF has made a finding of
              research misconduct. 40
          •   Require the Subject to certify to the Assistant Inspector General for Investigations
              (AIGI) his completion of a responsible conduct of research training program and
              provide documentation of the progi-am's content within 1 year ofNSF's finding. 41
              The instruction should be in an interactive format (e.g., an instructor-led course) and
              specifically include discussion 6n citation practices.

For a period of two years as of the date ofNSF's finding:

          •   Require for each document (proposal, report, etc.) to which the Subject contributes
              for submission to NSF (directly or through his institution),
                  o the Subject to submit a contemporaneous certification to the AlGI that the
                     document does not contain plagiarism, falsification, or fabrication. 42




40
   A Group I action45 C.F.R. 689.3(a)(l)(i).
41
   Tbis action is similar to Group I actions 45 C.F.R. 689.3(a)(l).
42
   Tbis action is similar to 45 C.F.R. 689.3(a)(l)(iii).


                                                           7
SENSITIVE                                                                                                SENSITIVE



                         The Subject's Response to Draft Investigation Report

      We provided the Subject with a copy of our draft report and attachments for comment. 43
                                44
The Subject submitted a response in which he argued, among other things, that he did not
commit plagiarism knowingly. Crucially, he stated:

         More importantly, if I knowingly recklessly plagiarized, why would I
         reference almost all sources in niy proposals? If I knew I was plagiarizing,
         I should have taken all efforts to hide any information that could be used
         to trace back to the original sources. The fact that I referenced almost all
         the original sources shows that I did not intend to plagiarize or knowingly
              . . d .45
         p Iag1anze

The Subject had not made this assertion in hisprevious responses. As explained above, there
were eight sources, Sources A-H, from which the Subject copied material. In fact, he cited only
Source B in Proposal 1's Works Cited section, in a manner that in no way indicated he had
copied text from it. 46 Thus, not only were "almost all" of the sources not referenced in the
proposals, but in fact less than 13% of the sources were cited.

        The draft report that we sent to the Subject recommended one year of certifications. The
Subject's new argument in response to the draft report provides further evidence of the depth of
his incomprehension of scholarly standards, as well as a profound lack of candor. Accordingly,
we determined that the Subject's response to the draft report increased the seriousness of his
misconduct, warranting two years of certifications rather than just one.




43
   Tab 9.
44
   Tab 10.
45
   Tab 10, Response. Text was balded in original.
46
   There was verbatim text in Proposal2 that the Subject copied from Source F, which is a magazine article that
summarizes a journal article (without using text from the journal article}--the Subject did cite that journal article in
the Works Cited section, but did not.reference the magazine article thathe copied the text from


                                                           8
